Nos. 19-251 & 19-255

 

In THE
Supreme Court of the United States

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
MATTHEW RODRIQUEZ, IN HIS OFFICIAL CAPACITY AS THE ACTING
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

THOMAS MorE Law CENTER,
Petitioner,
v.
MATTHEW RODRIQUEZ, IN HIS OFFICIAL CAPACITY AS THE ACTING
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

On Writs of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF CHARITYWATCH AS AMICUS CURIAE IN
SUPPORT OF RESPONDENT
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,613 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Wilson-Epes Printing Co., Inc.
